w .

L *

SUPREME COURT OF THE UNITED STATES
Supreme Court, li.S.
-------- FttEO—

Jasma McCullough
Petitioner,

^ 1 7 2020
OFFICE OF THE CLERK

VS.

Shayolonda Herron, Frederick Jones; Sondra White
Respondent,
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Fifth Circuit
PETITION FOR A WRIT OF CERTIORARI

Jasma McCullough
Pro Se
3512 Cedar Dr #10,
Dickinson Tx,77539
Mcmi11oughiasma@gmail.com
346-302*1227

I.

Questions Presented

1. Whether a child abuse investigator can give a medical
diagnosis/opinion to the court without a Doctors opinion to remove a
child.
2. Whether unauthorized practice of Medicine violates both Procedural
and Substantive Due Process

3.

Whether the District and Appellate courts can determine if /when

drugs have been used without seeking the opinion of a Medical Review
Officer/Expert when removing a child.

4. Whether simply notifying a parent of a child abuse allegation satisfy
the 14th Amendment Procedural Due Process requirements when
removing a child.

5. Whether a child abuse investigator relying on an uncorroborated
allegation and testifying that it is “known knowledge of facts”
violates the 14th Amendment Substantive Due Process Clause.

6. Whether a child abuse investigator can give a false testimony in effort
to remove a child if probable cause exists for any other reason.

7. Whether a child abuse investigator withholding exculpatory evidence
constitute perjury by omission and violate the 14th Amendment
Substantive and Procedural Due Process Clause.

8. Whether a court could accept a disputed affidavit used to remove a
child in a prior proceeding as true and correct without requiring
evidence.

PARTIES TO THE PROCEEDING
All parties to the proceeding are named in the caption.

TABLE OF CONTENTS
Question Presented
Table of Contents
Table of Authorities
1

Petition for Writ of Certiorari
Opinions Below

1

Jurisdiction

1
2

Constitutional Provisions Involved

3

Statement of the Case
15

REASONS FOR GRANTING THE WRIT
CONCLUSION

17

Certificate of Service.... 18
INDEX TO APPENDIX
Appendix A; Decision of U.S Court of Appeals 5th Circuit 20 20058
Appendix B; Decision of U.S District Court Southern District of Texas
417-cv-00083 Final Judgment
Appendix C: U.S District Court Southern District of Texas 417-cv-00083
Memorandum and Recommendation

TABLE OF AUTHORITIES
Bd. ofRegents ofSt. Colleges v. Roth, 408 US. 564, 570, 92 S.Ct. 2701,
3,14

2705 (1972).

Fuentes v. Shevin, 407 U.S. 67, 80, 92S.Ct. 1983 1994 (1972).

3,14

Kovacic v. Cuyahoga Cnty. Dep't of Children & Family Servs. 724 F. 3d
687 (6th Cir. 2013.

14

Troxel v. Granville, 530 U.S. 57, 65-66, 120S.Ct. 2054, 2060
(2000)....... 3,14
Victory, 814 F.3d. at 67 (citing Swarthout v. Cooke, 562 U.S. 216, 219
(2011)).

3,14

1.
PETITION FOR A WRIT OF CERTIORARI
Petitioner Jasma McCullough, Pro Se respectfully petitions
for a writ of certiorari to review the judgment of the
United States Court of Appeals for the Fifth Circuit

OPINIONS BELOW
The decision of the United States Court of Appeals for the Fifth Circuit
is Unpublished

JURISDICTION
Ms. McCullough’s appeal to the U.S Court of Appeals for the Fifth
Circuit was denied on December 16th, 2020. Due to Covid, the Supreme
Court ordered a 150_day extension. Ms. McCullough invokes this
Court's jurisdiction under 28 U.S.C. § 1257, having timely filed this
petition for a writ of certiorari within 150 days of the U.S Court of
Appeals for the 5th Circuit judgment.

2.
CONSTITUTIONAL PROVISIONS INVOLVED
1. 14th Amendment Procedural due process is the guarantee of a fair legal
process when the government tries to interfere with a person's
protected interests in life, liberty, or property.
2. 14th Amendment Substantive due process is the guarantee that the
fundamental rights of citizens will not be encroached on by government.

3.
STATEMENT OF THE CASE

The Fourteenth Amendment (Amendment XIV) to the United States
Constitution was adopted on July 9, 1868, as one of the Reconstruction
Amendments, it addresses citizenship rights and equal protection under
the law. This court held the right to procedural due process is
implicated where a constitutionally protected liberty or property
interest is concerned. Bd. ofRegents ofSt. Colleges v. Roth, 408 US.
564, 570, 92 S.Ct. 2701, 2705 (1972). The crux of procedural due process
is the right to notice and an opportunity to be heard at a meaningful
time and in a meaningful manner. Fuentes v. Shevin, 407 U.S. 67, 80,
92S.Ct. 1983, 1994 (1972). The U.S. Supreme Court has repeatedly
held that parents have a fundamental right to make decisions as to the
companionship, care, custody, and management of their children, which
right is a protected liberty interest under the Due Process Clause of the
Fourteenth Amendment. Troxel v. Granville, 530 U.S. 57, 65—66, 120
S. Ct. 2054, 2060 (2000). As a result, there can be no doubt that the
Fourteenth Amendment is implicated whenever the

4.
government seeks to separate a parent from his or her child, and
due-process principles generally require the right to notice and a
hearing before children are separated from their parents. This case
presents the question of whether a parent s substantive and
procedural rights have been violated when a social gives medical
opinion about a child’s health without a consulting with a Doctor can
rely solely on uncorroborated allegations and state they are “known
knowledge of facts”, omit exculpatory evidence, falsify a child
removal affidavit if probable cause exists for something else and if
the court is allowed to act as an “expert witness” when determining
when/if drug usage has been involved.

5.
CPS Investigation and Child Removal
On or around November 11th, 2014, Texas Department of Family and
Protective Services (DFPS) received a call from Paternal Grandmother
Washita McCoy alleging that Grandson KRM had a “Seizure Disorder",
was referred to a “Neurologist” and Petitioner (Jasma McCullough)
failed to take him. On or around November 24th, 2015, (DFPS) received
a call stating Petitioner was engaged in a “Domestic Violence dispute
while “driving 10-month KS on her lap". Petitioner received a call from
DFPS investigator Shayolonda Herron on or around December 5th, 2014
and advised Shayolonda Herron she wanted nothing to do with CPS at
all. She was then advised by Shayolonda Herron that if she did not
comply, Herron would have to “go to the courts . Petitioner, under
duress, met with Shayolonda Herron December 9th, 2014, for
approximately 10 minutes to discuss the seizure, allegations, domestic
violence with KS and getting the children s shots up to date, they were
4 months behind, petitioner told Herron she was no longer interested in
getting the vaccinations due to personal reasons. Petitioner denied all
allegations, explained that KRM had 3 seizures in his lifetime, went to

6.
the ER all three times and all Doctors diagnosed them as “Febrile
Seizures”, seizures associated with a fever and instructed that she
alternate Motrin and Tylenol, and that they did not refer her to a
neurologist. Petitioner told Herron that the “Dispute” with KS had
nothing to do with her, it was a fight with Perriun Simmons (KS
Father) and Petitioner’s brother, Maron Smith, she was just going to get
her vehicle she shared with Mr., Simmons. There was no talk about KS
being in petitioners lap at that time. That was the end of the
investigation, per petitioner, On or around December 18th, petitioner
was advised by Herron that she needed to take a drug test. Petitioner
asked why and informed Herron that she had no vehicle to just jump
and do it. Herron told petitioner if she did not take a drug test, she
would go to the courts and have the children removed. On December
23rd, 2014, Herron demanded that the children get their vaccinations
and notify Petitioner that their (government) Medicaid had lapsed and
advised her to go the Health & Humans Services that day. Petitioner
advised her that it is almost Christmas, and she could not get an
appointment the same say for vaccinations, Herron told Petitioner if the

7.
children do not get their vaccinations she was going to the court.
Petitioner demanded a supervisor. Petitioner spoke with Supervisor,
Sondra White and explained the unhealthy relationship between her
and Herron along with the unreasonable demands and time constraints
and ask for a new investigator. White told petitioner “it’s best you do
what she says because once you lose your kids it will be hard to get
them back”.
On January 5^, 2015, Petitioner received a txt at 9pm from Herron
stating, “She needed to see the kids for a 30'day contact, she already
saw the oldest, just needed to see KS.” Petitioner advised her that
she was at work, the visit would have to wait til morning. On
January 6th, 2015, Perriun Simmons took KS to see Herron for the
“30-day contact”. Mr.. Simmons called Petitioner 30 minutes later
crying and explained “They (DFPS) took KS . Petitioner called
Herron and was told that “if she wanted to know why the kids were
taken, she had to come to the office”. When petitioner arrived, she
was advised that she lost her kids because her hair follicle tested
positive for cocaine”.

8.
On 1/5/2015 Shayonloda Herron at both her Supervisor Sondra
White and Frederick Jones instructions filed an Affidavit for an
emergency Ex-Parte Removal with the Harris County District court
alleging Medical Neglect and Neglectful Supervision along with:
1.Mother had porn on the internet
2. KRM had a “seizure disorder” that was ongoing, untreated and
getting progressively worse and mother failed to get him medical
attention
3. Mother refused to take her children to the doctor
4. Mother was referred to a neurologist and failed to take KRM
5. Mother told her that she got into a domestic violence dispute with
Perriun Simmons because she saw Simmons with another woman in
her car
6. Mother admitted to driving with KS in her lap while engaging in a
domestic violence dispute with Perriun Simmons and that mother
did not think it was anything wrong.
7.Mother tested positive for cocaine

9.
Petitioner’s children were returned to her after lyr, 3 months and 23
days after claims against her was dismissed. January 5th, 2017,
Petitioner sued alleging her 14th Amendment Procedural and
Substantive Due Process rights were violated arguing that
Shayolonda Herron Falsified her affidavit by stating the children
were “Medically Neglected” because Herron had no evidence KRM
was ever referred to a neurologist or have a “Seizure disorder” nor
never sought medical records or Doctor’s opinion for KRM. Alleging
that Petitioner refused to take her children to the doctor and
Neglectful Supervision, claiming Petitioner told her she drove with
KS on her lap and engaged in a Domestic Violence dispute because
Mr. Simmons was driving with a woman in the car, and stating that
the intake was from law enforcement when there are no
reports from law enforcement and omitting Petitioners negative drug
urinalysis results from the Ex-Parte hearing. The district court
dismissed all claims holding.
Medical Neglect (Texas Department of Family and Protective
Services)

10.
Failing to seek, obtain, or follow through with medical care for a
child, with the failure resulting in or presenting a substantial risk of
death, disfigurement, or bodily injury or with the failure resulting in
an observable and material impairment to the growth, development,
or functioning of the child.

“The summary judgment evidence does not raise a fact issue that.
Herron knowingly and intentionally, or with reckless disregard for
the truth, made a false statement in her affidavit about KNM’s.
seizure disorder. McCoy and his mother both told Herron that the
KNM had a seizure disorder, and Plaintiff admitted that KNM had.
a seizure several weeks earlier. Simply because Plaintiff
disagrees with others’ characterization of her son s medical
history does not raise a fact issue that Herron lied in her affidavit
when telling the court that family members told her that KNM had a
seizure disorder.
(see ROA 20-20058.1669-1697)

11.
Neglectful Supervision (Texas Department of Family and Protective
Services)
Placing a child in or failing to remove a child from a situation that a
reasonable person would realize requires judgment or actions beyond
the child’s level of maturity, physical condition, or mental abilities and
that result in bodily injury or a substantial risk of immediate harm to
the child.
The final District Court judgment also held “The statement in Herron's
affidavit that Plaintiff got into a verbal altercation with her baby s
father and then drove away in the father’s vehicle with the
unrestrained baby on her lap was supported by summary judgment
evidence that the factual basis for this information came from a police
report of the incident that was found in the file. Herron’s field notes also
recounted that Plaintiff later admitted to Herron that Plaintiff was
holding the baby on her lap as she drove away, and that Herron
attempted to contact the baby’s father for his version of the incident but
was unsuccessful”.

12.
The court concluded, “Even if the court were to assume that Herron lied
in her field notes and the lie was repeated in Herron’s affidavit, the
false statement was not material to the court’s determination of
probable cause as there is evidence in the record supporting the
removal of the children based on medical neglect.”.
Drug Test
The court held: The undisputed summary judgment evidence supports
Herron’s statement that McCullough tested positive for cocaine from a
hair follicle test. The fact that the contemporaneous urinalysis sample
tested negative did not raise a constitutional claim that Herron lied in
her affidavit. The negative urinalysis would on raise inference that the
usage was not recent.”
Oddly, the affidavit used in the 2015 Ex Parte Emergency removal is
the same affidavit the District used to come up with its conclusion.
There are no police reports in any file, there are no medical records or
doctor’s opinions in any file.
On appeal, petitioner renewed her argument that both her Procedural
Due Process and Substantive due were violated. Her son does not have

13.
a seizure disorder, Herron is not a Doctor or Medical Professional, drug
test results are in controversy because Herron omitted Petitioners
negative drug test results from the Ex Parte hearing both were
administered the same day and petitioner never used drugs, petitioner
never drove with KS on her lap or admitted to engaging in a domestic
violence dispute with Perriun Simmons, Herron has no medical records
to substantiate her claims and there are no police reports corroborating
her story.
The Court of Appeals gave a similar if not exact recitation of the U.S
District Courts M&R and AFFIRMED

14.
REASONS FOR GRANTING THE WRIT
To avoid erroneous deprivations of parent’s 14th Amendment Procedural
and Substantive Due process rights.
In order to prevail on a Fourteenth Amendment procedural due process
claim, a plaintiff must show (l) that she possessed a protected liberty or
property interest of which she has been deprived; and (2) that the
procedures afforded to her were not constitutionally sufficient. Victory,
814 F.3d. at 67 (citingSwarthout v. Cooke, 562 US. 216, 219 (2011)).
Today, a parent child relationship in the 5th Circuit is threatened by ex
parte emergency removals if DFPS receives a call alleging a child is ill
because it has been held that a social worker can simply go tell the
court “what they’ve been told” by the caller without requiring any
qualified medical opinion, facts, investigation or evidence which does
not allow the parent their Procedural Due Process Right to be heard.
Telling a court that a child has a “Seizure Disorder that is ongoing,
untreated and getting progressively worse” is a Medical Opinion that
only a Doctor is qualified to give. The crux of procedural due process is
the right to notice and an opportunity to be heard at a meaningful time

15.
and in a meaningful manner. Fuentes v. Shevin, 407 US. 67, 80, 92
S.Ct. 1983, 1994

However, if the State courts, District Court and

Court of Appeals accept the same affidavit used to remove the child as
“True and Correct” requiring no evidence, parents have no recourse and
no right to redress their grievances with the court when they have lost
before they filed their complaint. The court also held that because
Herron told Petitioner about the allegations, that was her notice and
opportunity to be heard.
A social workers affidavit can also contain false or misleading
information if there is probable cause for something else.
Finding due process right to be free from deliberately fabricated
evidence in a child abuse proceeding where plaintiff produced evidence
that a social worker, deliberately falsified statements Kovacic v.
Cuyahoga Cnty. Dep’t of Children & Family Servs. 724 F3d 687 (6th
Cir. 2013. A parent also does not have the right to decide if they want
their children vaccinated or not which is contrary to Troxel v. Granville,
530 US. 57, 65-66, 120S.Ct. 2054, 2060 (2000)and courts having the
authority to decide if and when a parent has used drugs without

16.
obtaining an expert opinion. It is important that thus court address the
questions presented because parents will have no protections in the 5th
Circuit if they allege, they have been injured by a child abuse
investigator although the constitution allows it. Because the District
Court and Court of Appeals Accepted the disputed affidavit that was
used in a child removal proceeding as true and correct without
requiring a Doctors opinion or any evidence to substantiate the claims,
a review is warranted. Allowing unauthorized practice of medicine in a
child welfare proceeding is fatal. Contrary to the District Court and
Court of appeals final judgement, although it is stated numerous times
that respondent produced evidence, the record will show no evidence
submitted in State, Federal or Appellate Court.

17.
CONCLUSION
For the foregoing reasons, Ms. McCullough respectfully requests that
this Court issue a writ of certiorari to review the judgment of the 5th
Circuit Court of Appeals.

